U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                INTERNATIONAL TRADE
                     ADMINISTRATION

US&FCS Italy’s Effectiveness Can Be Further
    Enhanced By Focusing on Management
                and Program Improvements


       Final Inspection Report No. IPE-14243/March 2002




                            PUBLIC
                            RELEASE



          Office of Inspections and Program Evaluations

U.S. Department of Commerce                                              Final Report IPE – 14243 

Office of Inspector General                                                           March 2002 



                                   EXECUTIVE SUMMARY 


Pursuant to the legislative requirements of the Omnibus Trade and Competitiveness Act of 1988
and our authority under the Inspector General Act of 1978, we conducted an inspection of United
States and Foreign Commercial Service (US&FCS) operations in Italy. Our domestic fieldwork
was conducted from April 2 to May 18, 2001, and our overseas fieldwork, from May 21 to June 6,
2001. During the review and at its conclusion, we discussed our findings with the Senior
Commercial Officer in Rome, as well as the Regional Director for Europe and the Director of the
Office of International Operations at US&FCS headquarters. We briefed the Director General of
US&FCS on October 24, 2001.

The purpose of this inspection was to assess the management, programs, and financial and
administrative practices of US&FCS Italy. This included assessing the development of goals and
objectives, determining whether goals are being achieved and whether programs are effective,
evaluating the economy and efficiency of the operation, and assessing the post’s compliance with
applicable regulations and instructions. We also examined the coordination between the post and
other organizations in achieving the overall goals of ITA and the Department.

The Italian market is mature, highly competitive, and open to U.S. items, particularly innovative
products, services, and technologies. The U.S.-Italy bilateral relationship is strong and growing,
and the two countries cooperate closely on major economic issues. With a large population and a
high per capita income, Italy is one of the United States’ most important trade partners. In 2000,
the United States exported approximately $11 billion in goods to Italy, which accounts for a 5.6
percent share of its import market. However, at the same time, the U.S. imported $25 billion from
Italy, resulting in a deficit of about $14 billion.

Italy is the 11th largest US&FCS post in the world, in terms of dollars. The post’s resources are
primarily focused in two locations–Rome (with two officers, eight FSNs), and Milan (two officers,
eight FSNs, and one personal services contractor [PSC]), but it also has a presence in three other
cities–Florence (two FSNs), Naples (one FSN), and Genoa (one FSN and one PSC vacancy).

In general, we found that US&FCS Italy is a well-run, effective overseas operation. The staff is
meeting the post’s mission by delivering high-quality products and services to its clients, and by
helping increase U.S. exports to Italy. We noted that the Senior Commercial Officer (SCO) has
focused effectively on outreach to multiplier organizations and has improved the post’s
relationships with these organizations significantly. The post’s mission and purpose are clear and
understood by all US&FCS staff in the post’s five offices. Based on a limited review, we found
the post’s clients to be highly satisfied with US&FCS Italy’s products and services. The post is
devoting resources and energy to implement its part of Showcase Europe, and is providing quality,
timely support to the Bureau of Export Administration’s requests for input on Pre-License Checks
and Post-Shipment Verifications. We noted extremely good working relationships with in-country
partners (such as the American Chambers of Commerce) and with the U.S. embassy and
consulates. The level of cooperation and teamwork among staff both within US&FCS offices and
between them in country is good. (See page 5).




                                                 i
U.S. Department of Commerce                                                Final Report IPE – 14243 

Office of Inspector General                                                             March 2002 



With a few exceptions, US&FCS Italy has adequate internal control systems and financial
management practices to meet requirements and procedures, support the post’s operations, and
deter fraud, waste, and abuse of government resources. However, we also identified the following
improvements that can be made in the management of the post, its product and service delivery,
and a number of administrative and financial operations.

��	 US&FCS Italy could improve its strategic direction and resource management. We
    believe that by further focusing its attention on key strategic and resource management issues,
    management could enhance the post’s effectiveness and productivity. First, while the post is
    meeting US&FCS headquarters’ requirement for a one-page strategic plan, Italy’s plan is not
    sufficiently detailed to be a useful document for the post’s management or staff. We are
    recommending that US&FCS headquarters reconsider the guidance for preparation of post
    strategic plans, balancing headquarters’ need for brevity with posts’ needs for a useful plan that
    accurately portrays their operations. In addition, US&FCS Italy does not have a countrywide
    strategy for resource allocation. Resource issues are being developed and considered on a
    piecemeal basis, in reaction to individual resource and/or staffing changes, rather than on the
    basis of the mission’s overall resource priorities, which should be driven by US&FCS Italy’s
    strategic goals and objectives. Finally, US&FCS Italy has not developed policies or strategies
    to deal with the explosive growth in the number of e-mail requests for information and
    assistance from outside entities. Management indicated that core programs and quality control
    over work products have suffered because of this growth in inquiries and requests. We believe
    that US&FCS Italy should develop strategies and policies to help its staff better deal with this
    workload growth. (See page 5.)

��	 Quality control over export successes needs improvement. US&FCS Italy needs to improve
    its procedures for entering and reviewing its export successes. We noted inconsistent and
    inaccurate reporting by the post, and found that 19 percent of its reported export success entries
    did not meet the criteria for export successes contained in the US&FCS internal guidelines.
    We believe that this has occurred primarily due to weak internal controls or oversight over
    export success reporting by US&FCS Italy and, in part, US&FCS headquarters. As a
    consequence, the Client Management System database, which contains each office’s reported
    export successes, may not be a reliable gauge of post performance. (See page 9.)

��	 Post needs to conduct systematic client follow-up. US&FCS Italy is not following up
    systematically with its clients, as required by US&FCS policy, in order to track its clients’
    export progress and monitor those requiring further assistance. The staff has indicated that the
    lack of client follow-up is primarily due to other, higher priorities. However, by failing to
    conduct systematic client follow-up, US&FCS Italy may be missing out on opportunities to
    capture valuable customer feedback on the post’s products and services, as well as potential
    missed “export successes,” through which the post’s performance is largely measured. (See
    page 16.)

��	 US&FCS Rome needs to improve collections management. US&FCS Rome’s collections
    and deposits to the lockbox are not made weekly, as required by ITA policy and regulations of
    the U.S. Treasury Department. US&FCS Rome accumulates payments for its trade promotion


                                                  ii
 U.S. Department of Commerce                                                Final Report IPE – 14243 

 Office of Inspector General                                                             March 2002 



     services or from the sale of commercial products until the total reaches $100 before making a
     deposit, even though it may take longer than a week to reach this amount. Although the
     practice followed by the post makes sense, it is not consistent with ITA’s policy or financial
     management requirements of the Treasury. If US&FCS Rome wishes to continue this practice,
     it should request that ITA headquarters seek a waiver from the Treasury Department to enable
     US&FCS Rome to accumulate collections until they reach $100 so that the cost of processing
     the collection is not exorbitant in light of the amount to be deposited. In addition, US&FCS
     Rome collection procedures violate basic internal control principles and do not comply with
     ITA policy and procedures. According to ITA guidance, “No single individual may control a
     collection transaction. Offices must ensure that collection duties are separated and performed
     by different individuals.” While the amount of cash collected at the post is relatively small
     (less than $3,500 annually), and some of the duties are currently segregated, the collection
     responsibilities should be further segregated to safeguard against the potential misuse of
     receipts and ensure accurate reporting. (See page 24).

 ��	 Post needs to consistently follow ITA guidelines for using trade event funds to purchase
     capital assets. Some funds generated from US&FCS Italy trade events were being used by the
     post to purchase capital assets without proper authorization. ITA policy allows capital assets to
     be purchased with trade event funds if the asset is used for a trade event. There are specific
     authorization policies for capital equipment purchases over $5,000 and for those under $5,000.
     Our review of the post’s procurement of capital assets with trade event funds disclosed that
     ITA policy and procedures were not consistently followed under either policy, although all
     purchases did support the post’s trade events program. Without proper management oversight,
     US&FCS cannot be certain that trade event funds are being used appropriately by US&FCS
     Italy. (See page 29.)

 ��	 US&FCS Milan needs a cost allocation system as a basis to properly calculate user fees.
     US&FCS Milan does not have an effective cost allocation system to identify and allocate direct
     and indirect costs between fee-for-service expenditures and Operations and Administration
     (O&A) costs. Without such a system, US&FCS Italy cannot determine the full costs of trade
     events and, by extension, whether fees collected recover the full cost of those events, as
     required. Our work on this issue focused on US&FCS Milan as this office manages the vast
     majority of the post’s trade events. (See page 31.)

 ��	 Information technology issues need to be addressed. US&FCS Italy has a myriad of
     information technology support and infrastructure problems that could become a major threat
     to its operations. These include: numerous “malfunctions” and system anomalies with the
     Client Management System; inadequate local technical support; poorly functioning backup
     systems in Milan and Rome; and lack of maintenance contracts for most of its printers, copiers,
     and some IT equipment at all of its sites. In addition, there is a lack of in-house information
     technology support for the Naples and Florence offices. The Naples office is depending on the
     Department of State to provide it information technology support without charge. (See page
     21.)

On page 36, we offer recommendations to address our concerns.



                                                  iii
 U.S. Department of Commerce                                         Final Report IPE – 14243 

 Office of Inspector General                                                      March 2002 





In response to our draft report, the Director General concurred in principle with our
recommendations and cited many instances in which the post and US&FCS headquarters have
already taken action.




                                              iv
U.S. Department of Commerce                                              Final Report IPE – 14243 

Office of Inspector General                                                           March 2002 


                                      INTRODUCTION

The Omnibus Trade and Competitiveness Act of 1988 assigned the Commerce OIG the
responsibility to periodically evaluate the operations of the United States and Foreign
Commercial Service (US&FCS). We are required to report to the Congress at least every three
years on our assessment of the management and effectiveness of US&FCS’s operations,
including its personnel system and the placement of its domestic and foreign staff. Pursuant to
this legislative requirement and our authority under the Inspector General Act of 1978, as
amended, we periodically conduct inspections of the US&FCS overseas operations. Under this
authority, we conducted an inspection of US&FCS operations in Italy.

Inspections are special reviews that the OIG undertakes to provide agency managers with timely
information about operational issues. One of the main goals of an inspection is to eliminate
waste in federal government programs by encouraging effective and efficient operations. By
asking questions, identifying problems, and suggesting solutions, the OIG hopes to help
managers move quickly to address problems identified during the inspection. Inspections may
also highlight effective programs or operations, particularly if they may be useful or adaptable
for agency managers or program operations elsewhere.

This inspection was conducted in accordance with the Quality Standards for Inspections issued
by the President’s Council on Integrity and Efficiency. Our domestic fieldwork was conducted
from April 2, to May 18, 2001, and our overseas fieldwork, from May 21 to June 6, 2001.
During the review and at its conclusion, we discussed our findings with the Senior Commercial
Officer (SCO) in Rome, as well as the Regional Director for Europe and the Director of the
Office of International Operations (OIO) at US&FCS headquarters. We briefed the Director
General of US&FCS on October 24, 2001.

                       OBJECTIVES, SCOPE AND METHODOLOGY

The purpose of this inspection was to assess the management, program, and financial and
administrative practices of US&FCS Italy. This included assessing the development of goals and
objectives, determining whether goals are being achieved, evaluating the economy and efficiency
of the operation, and assessing the post’s compliance with applicable regulations and
instructions. We also examined the coordination between the post and other organizations in
achieving the overall goals of the International Trade Administration and the Department. The
specific objectives of this review were as follows:

��	 To determine whether US&FCS Italy is planning, organizing, and controlling its work and
    resources effectively and efficiently.
��	 To determine whether US&FCS Italy is operating effectively, meeting the needs of U.S.
    exporters, and helping to increase exports and market access.
��	 To determine whether appropriate internal controls and financial management practices are
    in place.
��	 To identify “best practices” and innovations that could be useful to other US&FCS posts and
    operations.



                                               1

U.S. Department of Commerce                                                   Final Report IPE – 14243 

Office of Inspector General                                                                March 2002 


�� To assess infrastructure issues at US&FCS Italy, including ones relating to information
   technology, security and facilities.

                                        BACKGROUND

                       Italy, with the world’s sixth largest industrial economy, has a population
                       of approximately 58 million and a landmass roughly the size of Arizona.
                       Italy’s per capita output is on par with that of France and the United
                       Kingdom. Italy’s economy is diversified and divided into a highly
                       industrialized north and a less developed agricultural south. Its primary
industries include tourism, machinery, iron and steel, chemicals, food processing, textiles, motor
vehicles, clothing, footwear, and ceramics.

The Italian government continues on a path of budget austerity
and privatization, reducing its previously more significant role
in the economy. The key economic challenges facing Italy are
keeping the government deficit under control, continuing to                   Italy: Key Facts
reduce the high level of government debt, reducing                  Population             58 million
unemployment, addressing structural rigidities of the Italian       Capital                Rome
market, and improving public administration.
                                                                    Area                   116,301 sq. miles

The Italian market is mature and highly competitive.             Government           Republic
According to the most recent Country Commercial Guide            GDP per capita       $21,400
(CCG) for Italy, the Italian market is very open to U.S. items,
particularly innovative products, services, and technologies.    GDP                  $1.17 trillion
European Union (EU) changes to the Common Agricultural           Exports (1999)       $229 billion
Policy and Italy’s implementation of EU harmonized sanitary
regulations should offer fresh opportunities for U.S.            Imports (1999)       $215 billion
agricultural exports. The realignment of the distribution sector Unemployment rate 11.5% (est.)
toward larger chains and more competitive pricing should also
aid U.S. exports. Italy’s participation in the “euro” will       Growth rate          2.8% (2000)
simplify trade for companies exporting to several EU countries
and create opportunities for U.S. companies with technologies and services that can assist Italian
firms to compete in the more integrated European market.

The U.S.-Italian relationship is strong and growing, and the two countries cooperate closely on
major economic issues. With a sizable population and a high per capita income, Italy is one of
the United States’ most important trade partners. While 61 percent of Italy’s imports come from
EU countries, the Census Bureau reported that, in 2000, the United States exported
approximately $11 billion in goods to Italy, which accounts for a 5.6 percent share of its import
market. However, at the same time, the United States imported $25 billion from Italy, resulting
in a deficit of about $14 billion. However, trade between the two countries is now more difficult
to accurately quantify because of the EU open borders, as many U.S. food and agricultural
products arrive in Italy via France and Germany. The trend toward consolidating regional
distribution is expected to continue.




                                                 2

U.S. Department of Commerce                                                        Final Report IPE – 14243 

Office of Inspector General                                                                     March 2002 


Italy is US&FCS’s 11th largest post in the world, in terms of dollars, with a fiscal year 2001
budget of approximately $1.4 million. This primarily includes foreign service national (FSN)
salaries, office and residential leases, and direct program support funds. American officer
salaries and State Department International Cooperative Administrative Support Services
(ICASS) 1 are not included. The post’s resources are primarily focused in two locations–Rome
(with two officers, eight foreign service nationals [FSNs]) and Milan (two officers, eight FSNs,
and one personal services contractor [PSC]), but it also has a presence in three other cities–
Florence (two FSNs), Naples (one FSN), and Genoa (one FSN and one PSC vacancy).

US&FCS Italy provides a range of services to American firms interested in the Italian market as
well as Italian firms seeking U.S. products and services. It has an active trade events and
business promotion schedule that focuses on assisting small and medium-sized American firms
wishing to enter the Italian market and supporting larger firms seeking to take advantage of the
privatization and restructuring taking place in the telecommunications, energy, health, and other
sectors in Italy.

                                 Figure 1: US&FCS Italy Locations




1
  ICASS is the principal means by which the U.S. Government provides and shares the cost of common
administrative support at its more than 200 diplomatic posts overseas.


                                                      3

U.S. Department of Commerce                                              Final Report IPE – 14243 

Office of Inspector General                                                           March 2002 


US&FCS Italy also plays an active role in US&FCS’s “Showcase Europe,” an export promotion
initiative that recognizes that many American businesses view and approach Europe as a single
regional market. Hence, the initiative’s goal is to coordinate the services and activities—which
include market research, trade promotion, and advocacy support—of US&FCS offices
throughout Europe, as well as the Baltic Rim states, Russia, and the Newly Independent States.
Under Showcase Europe, Italy has two lead responsibilities: organizing US&FCS participation
in European-based trade shows, and taking the lead in the environmental technologies, products,
and services industry sector.




                                               4

 U.S. Department of Commerce                                                 Final Report IPE – 14243 

 Office of Inspector General                                                              March 2002 


                                FINDINGS AND CONCLUSIONS


 In general, we found that US&FCS Italy is a well-run, effective overseas operation. The staff is
 meeting the post’s mission by delivering high-quality products and services to its clients, and by
 helping increase U.S. exports to Italy. We noted that the SCO has focused effectively on
 outreach to multiplier organizations and has improved the post’s relationships with these
 organizations significantly. The post’s mission and purpose are clear and understood by all
 US&FCS staff in the post’s five offices. Based on a limited review, we found the post’s clients
 to be highly satisfied with US&FCS Italy’s products and services. The post is devoting
 resources and energy to implement its part of Showcase Europe, and is providing quality, timely
 support to the Bureau of Export Administration’s requests for input on Pre-License Checks and
 Post-Shipment Verifications. We noted extremely good working relationships with in-country
 partners (such as the American Chambers of Commerce) and with the U.S. embassy and
 consulates. The level of cooperation and teamwork among staff both within US&FCS offices
 and between them in country is good, and the staff seemed highly motivated.

 With a few exceptions, US&FCS Italy has appropriate internal control systems and financial
 management practices in order to meet requirements and procedures, support the post’s
 operations, and deter fraud, waste and abuse. Our findings primarily concern setting up an
 improved internal control structure for some functions, as well as increasing attention to the
 management and expenditure of funds generated by trade events. To address these findings, we
 have recommended improvements in the management of the post, its product and service
 delivery, performance reporting, and in a number of its administrative and financial operations.

I.   US&FCS Italy Could Improve Its Strategic Direction and Resource Management

 We believe that by better focusing attention on key strategic and resource management issues, 

 management could enhance the post’s effectiveness and productivity.


 A. Post’s strategic planning could be enhanced

 While the post has complied with US&FCS headquarters’ requirement for a brief strategic plan,
 we believe the plan is not sufficiently detailed to be a useful document for the post’s
 management or staff. The SCO has a clear vision for his operation, but the post’s strategic plan
 does not adequately define the organization’s long-term goals, quantifiable objectives, or
 strategies to link goals and objectives.

 In its February 2001 strategic planning guidance to all SCOs, US&FCS headquarters specified 

 that strategic plans are to be no longer than one page. As one headquarters official put it, this 

 was done to “force posts to prioritize their critical goals and to try and provide for 

 uniformity…(and) compels them to be realistic, focused.” In addition, the guidance included 

 examples of how to state performance targets and strategies to accomplish them. 


 The strategic plan prepared by US&FCS Italy for FY 2001-02 met the one-page requirement, but
 lacked the specificity needed to serve as a useful, effective document to guide post operations.
 Its strategies were vague or unexplained, the goals were too general and no method of



                                                  5

U.S. Department of Commerce                                                  Final Report IPE – 14243 

Office of Inspector General                                                               March 2002 


implementation was provided. For example, one of the post’s strategies is to “capitalize on
strong Italian interest in technologies and services,” although the plan does not explain what it
will mean to the post to capitalize on this area, or how this will be implemented, or how its
impact will be measured. While the current plan does provide numeric targets for various
activities, it does not state how attainment of its goals and strategies will be measured, who will
measure them, how often they will be measured, and by what process the plan will be revised, if
necessary. In addition, the priority of post activities, industrial priorities, and discussion of in-
country resource priorities are not mentioned. Staff and management confirmed our analysis of
the strategic plan, stating that it was not a document that would be or was used to guide and
make adjustments to post operations or activities. It was described as “another annual exercise”
imposed by headquarters.

A better-defined strategic plan with realistic strategies could help US&FCS Italy become more
efficient and focused on its mission and activities. It could also enable US&FCS headquarters to
have a better understanding of the post’s plans for increasing its export successes. An enhanced
strategic plan would provide detail in terms of establishing goals, identifying priorities, and
setting milestones for measuring performance that would prove useful to both US&FCS
headquarters and the post. In addition, an improved strategic plan would assist the post in
defining a process for measuring progress against the plan’s goals and strategies and making
appropriate adjustments to post activities. While still meeting headquarters need for brevity, the
post should develop a more detailed and useful strategic plan for its operations.



In her response, the Director General indicated that US&FCS Italy had revised its FY 2002
strategic plan in November 2001 to better reflect and accurately capture its performance goals.
We believe that US&FCS Italy’s revision of its strategic plan, coupled with the preparation of
the Performance Targets Worksheet issued by US&FCS Headquarters, will likely provide a more
useful plan to guide the post’s operations. While we have not reviewed the revised strategic
plan, we believe that these steps are responsive to our recommendation. We ask US&FCS to
provide a copy of the post’s revised FY 2002 strategic plan and the Performance Targets
Worksheet with its action plan in response to this final report.

B.	 US&FCS Italy and headquarters should develop
    a resource allocation plan to implement the post’s strategic plan

US&FCS Italy is not approaching its countrywide resource needs on a strategic basis. Resource
allocation decisions are being made on a piecemeal basis in reaction to individual resource or
staffing changes not on the basis of the mission’s overall resource priorities, which should be
driven by US&FCS Italy’s strategic goals and objectives. During our site visit, we were made
aware of the following resource issues: an FSN vacancy in Milan, the potential need for
additional FSN or PSC staff support in US&FCS Naples and US&FCS Genoa, and the mounting
workload in US&FCS Rome. Although we were told by the SCO and the Deputy SCO that
recruiting for the Milan vacancy was their top priority, they also told us that they had not
considered all of the pending resource issues in the context of the post’s strategic goals and
objectives.



                                                  6

U.S. Department of Commerce                                                         Final Report IPE – 14243 

Office of Inspector General                                                                      March 2002 




Strategic planning and effective resource allocation should go hand in hand. Goals can be
achieved more effectively if the strategies to achieve them and the resources needed to execute
the strategies have been identified. As noted previously, a detailed strategic plan is needed for
US&FCS Italy. US&FCS Italy would also benefit from developing a resource allocation plan,
based on a detailed, effective strategic plan that enables the post to effectively conduct their
export promotion operations under a range of resource scenarios. We urge the US&FS Italy
management team to work with US&FCS headquarters to develop a comprehensive resource
allocation plan to address its resource requirements in the context of its strategic plan.



In her response, the Director General noted that US&FCS Italy’s updated strategic plan, in
combination with its cost/benefit model allocation system, will provide the proper matching of
resources for the post. In addition, US&FCS indicated that the post will review its authorized
spending more regularly to ensure that it is consistent with priorities outlined in its strategic plan.
While US&FCS did not directly agree or disagree with our request that the post develop a
comprehensive resource allocation plan, we believe that its actions as outlined in its response are
responsive to our recommendation and will likely achieve the same outcome we envisioned.

C. US&FCS Rome should devise strategies to cope
   with an increasing e-mail workload

US&FCS Rome management and staff told us that their workload was being significantly and
negatively impacted by the explosive growth in e-mail requests from outside entities for
information and assistance from the post. Staff told us that all inquiries were treated as
“priority,” which complicated processing the increasing amount of inquiries. Management
indicated that core programs and quality control over work products have suffered because of
this growth in e-mail requests. We believe that US&FCS Italy needs to develop a plan to help its
staff deal with this workload growth.

An increase in the number of e-mails being received is not a problem limited to this post, or to
US&FCS. One study indicated that, by 2002, the average office worker would spend 4 hours per
day on e-mail, up 50 percent from just a year ago.2 Other studies have shown for business and
government, even the U.S. Congress, that the tremendous growth of the Internet and of e-mail
users has not been matched by strategies to deal with this workload growth. One study indicated
that the number of electronic mailboxes in use globally rose 67 percent in just the last year
alone.3

However, US&FCS Italy needs to deal with its part of this explosive growth. The post would
benefit from identifying and categorizing the types of e-mail it is receiving, and developing a
strategy to deal with these different types of inquiries more efficiently. For example, the post
could determine which requests could be better handled with simple, standardized responses. It
could also develop a “frequently asked questions” section on its homepage that would respond to

2
    “Managing the E-Mail Explosion,” G. Zhou, PC World, September 4, 2000.
3
    “E-Mail Continues Explosive Growth,” J. Fontana, Network World Fusion, March 8, 2001.


                                                       7

U.S. Department of Commerce                                                Final Report IPE – 14243 

Office of Inspector General                                                             March 2002 


common e-mail inquiries, or perhaps develop links to sites on its web page that would address
topics frequently referred to in e-mails. These types of strategies, along with others the post may
develop, could reduce both the number of inquiries as well as time spent on individual responses,
thus providing more time for core products and services.



In her response to our recommendation, the Director General stated that the post would identify
and adopt specific ways to manage better the e-mail burden and reduce unnecessary internal
reporting.




                                                8

U.S. Department of Commerce                                                             Final Report IPE – 14243 

Office of Inspector General                                                                          March 2002 


II. 	    US&FCS Italy Delivers a High-Quality, Effective Trade Promotion Program,
         Although Improvements Can Be Made

US&FCS Italy is operating an effective export promotion program, providing value-added export
assistance to U.S. companies. We noted that US&FCS Italy has received high marks from its
clients for its delivery of products and services. US&FCS Italy’s primary customers consist of
small- to medium-sized companies seeking to enter Italy as a new market destination, and most
of their export successes are gained from the post’s customized services, particularly Gold Key
Services (GKS) and Single Company Promotions, and by participating in trade events in Italy.
We also noted that the post is supportive of the regional Showcase Europe initiative (See Section
V, page 18). Although US&FCS Italy has established a solid trade promotion program, we
identified areas where the post could improve its delivery and reporting of products and services
to promote U.S. exports.

A. Post’s reporting needs improved quality control

We noted that the post’s procedures and quality control on reporting activities, particularly of
export successes, need improvement and that nineteen percent of the post’s export successes did
not meet US&FCS’s criteria for an “export success.” We also found that some specialists are not
consistently entering the post’s export successes into the Client Management System (CMS)
database.4 In addition, US&FCS Italy’s reporting of its statistical performance results and
activities often differs from the numbers that are reflected in US&FCS’s performance and
financial tracking databases. As a consequence, management, both at the post and in
headquarters, may have an inaccurate picture of post’s operations, status, and achievements.

    1. 	 Quality control over export successes needs improvement

    US&FCS Italy needs to improve its procedures for entry of and quality control over its
    export successes. Our review identified inconsistent and inaccurate reporting by the post,
    and 19 percent of its reported export success entries did not meet the criteria contained in
    US&FCS internal guidelines. We believe that this situation occurred primarily due to weak
    internal control or oversight over export success reporting in US&FCS Italy and, in part,
    US&FCS headquarters. As a consequence, the CMS database may not be a reliable gauge of
    post performance. We are recommending that both US&FCS Italy and US&FCS
    headquarters improve the quality control and oversight of export success reporting.

    According to US&FCS, an export success is defined as one where US&FCS facilitates one or
    more of the following:

    ��	 An actual, verifiable export sale.
    ��	 The legally binding signing of an agreement, including agent/distributor/representative,
        joint venture, strategic alliance, franchising, or the signing of a contract with expected
        future sales.
    ��	 Resolution of a trade complaint or dispute on behalf of the client.
4
  The CMS database that enables trade specialists to report and track products and services rendered as well as the
results of their work, particularly export successes.


                                                         9

U.S. Department of Commerce                                               Final Report IPE – 14243 

Office of Inspector General                                                            March 2002 


   ��	 Removal of a market access barrier.

   The guidance further emphasizes the direct link between the post’s assistance and the
   reported “export success.” In addition, US&FCS’s “Guidance for Export Success Reporting”
   states that in order to retain credibility, “All posts need to be counting and reporting their
   results according to the same set of rules,” and reported figures need to be both “real and
   verifiable.” Export successes, as with other performance or accomplishment statistics, are
   entered into the CMS database by all offices and are accessible worldwide. As the director
   of US&FCS/OIO stated in an e-mail to all US&FCS overseas posts, “I cannot over-stress the
   importance of collecting accurate statistics and reporting them through this system.”

   However, we found that US&FCS Italy lacked appropriate quality control over the entry and
   approval process of export successes into CMS. For example, we noted that:

   ��	 Several trade specialists had not entered a single export success entry into CMS during
       the past two years.
   ��	 Some staff stated that they have entered export successes into CMS that do not fully meet
       US&FCS’s criteria because of lack of familiarity with the system.
   ��	 Some trade specialists did not enter their export successes because the CMS criteria only
       allow the reporting of an export success within one year of its occurrence. More timely
       reporting was needed.

   Our review found that of 104 export success entries recorded from October 2000 through
   July 2001, 20 (or 19.2 percent) did not meet US&FCS’s criteria for reporting export
   successes. Seventeen of the 20 entries concerned projected, rather than actual, sales or
   reports relating to client satisfaction with US&FCS services. One reported export success
   was actually an import into the United States. The other two entries involved contacts with
   clients concerning non-payment for a product or fee collection issues. Although staff
   believed that these entries met US&FCS’s definition of a “trade dispute” under its export
   success guidelines, US&FCS headquarters officials indicated to us that the results of
   US&FCS post efforts to assist clients in collection activities cannot be considered as export
   successes.

   We also noted that other reported export successes were based on exaggerated or inaccurate
   information. For example, some export successes that claimed a signed distribution
   agreement turned out to be inaccurate. As noted above, one entry was incorrectly entered
   into CMS as an export success, but should be more accurately described as an import
   success, because it involved assisting a U.S. businessperson to import an Italian product into
   the United States. One officer at the post described some of the export successes in the
   database for US&FCS Italy as being over-hyped and vague in reporting the value-added
   service provided by commercial specialists.

   We believe that many factors contributed to the inconsistency and inaccuracy of export
   success reporting. Some staff members cited the lack of time, while others indicated that
   they are not in the habit of entering export successes into an electronic database or were
   confused as to what constitutes an export success. Although US&FCS Italy’s commercial


                                               10

U.S. Department of Commerce                                                           Final Report IPE – 14243 

Office of Inspector General                                                                        March 2002 


    officers routinely screened the staff’s export success entries, we believe that a more thorough
    screening of the entries could improve the quality of the reporting. We also believe that this
    situation occurred in part because US&FCS headquarters did not conduct a systematic review
    to oversee the quality of the post’s export success entries.

    Inconsistent and inaccurate export success reporting by this or any post could have negative
    consequences for US&FCS. It could provide an erroneous picture of program
    accomplishments. Most importantly, unreliable reporting of export successes could lead to
    an inaccurate allocation of financial resources, especially since the US&FCS’s recently
    updated Resource Allocation Model relies heavily on the number of export successes to
    determine future resource allocation. The failure by US&FCS to maintain reliable and valid
    data on its reporting of performance measure could put these allocation decisions into
    question.

    We are recommending that US&FCS Italy managers advise the staff on the export success
    criteria established by headquarters, monitor the staff to ensure that they are entering all
    legitimate export successes into CMS on a regular basis, and improve the screening of export
    successes by strictly applying headquarters’ criteria before any data is entered into CMS.
    Additionally, US&FCS headquarters could improve the quality and the accuracy of posts’
    reporting by regularly conducting spot checks on export successes at all posts, to help ensure
    that entries into the system are appropriate.



    In response to our recommendation, the Director General stated that post management has
    taken steps to emphasize to the staff the importance of reporting post performance into the
    US&FCS database on a timely basis. Additionally, the post has developed a new matrix to
    improve tracking of commercial achievements.

    US&FCS also agrees to act upon our recommendation to improve the quality and accuracy of
    post reporting and will take the actions necessary to address our concerns. The Director
    General stated that, as part of OIO’s Performance-Based Management System, OIO
    instituted a three-level quality control process to screen every export success report. In
    addition, the post, during the second quarter of FY 2002, planned to recirculate the latest
    export success criteria and discuss with staff the need for strict application of headquarters
    criteria. The post also agreed to periodically check export successes for quality assurance
    purposes.

    2. Inconsistent performance reporting is problematic

    US&FCS Italy’s reporting of its data on activities and results differs significantly between its
    various systems and reports. Staff stated that the problems stem partly from system design
    inadequacies, and partly from inadequate and untimely reporting and updating of the
    databases. As a consequence, CMS and E-menu5 likely contains misleading information for

5
  E-menu is an electronic database that provides information on US&FCS’s offering of products/services, calendar
of events and activities, and post financial transactions.


                                                       11

U.S. Department of Commerce                                                              Final Report IPE – 14243 

Office of Inspector General                                                                           March 2002 


    management. We recommend that US&FCS Italy work with headquarters to ensure that the
    numbers represented in the new E-menu system and CMS coincide with the numbers that are
    reported from post so that both organizational levels have an accurate and timely picture of
    the post’s activities and productivity.

                Figure 2: US&FCS Italy Reported Performance Statistics, by Source

            US&FCS Italy
         Performance Areas**                                  FY 1999                          FY 2000

                                                 CMS        SCO         MRD         CMS         SCO        MRD
Export Successes                                 175        124         *           95          107        *
Trade Opportunity Program (TOP)                  2          11          *           15          20         *
Gold Key Service (GKS)                           5          11          *           11          13         *
Agent Distributor Service (ADS)                  12         30          *           30          19         *
International Market Insight (IMI)               14         17          17          7           13         17
Industry Sector Analysis (ISA)                   13         10          14          11          11         9
*US&FCS/EPS’s Market Research Database tracks statistical figures for market research reports only.
**Appendix I provides a brief description of these products and services.




    Before the implementation of E-menu in FY 2001, FY 1999 and FY 2000 statistical
    performance results for US&FCS Italy varied significantly between the SCO’s quarterly
    report and the numbers retrieved from various performance and financial databases (see
    Figure 2).

    Since the introduction of the E-menu system, the statistical variance between the systems has
    improved, although the reliability and accuracy of the performance statistics is still an issue.
    For example, as of August 2001, we found significant discrepancies between the post’s
    reported numbers and the numbers posted in CMS’s “Performance Measures” database and
    E-menu’s “product management and fulfillment” database, as shown in Figure 3.

                     Figure 3: US&FCS Italy Performance Reporting
                                               Post
                                 E-menu      Records      CMS                                    MRD
    Gold Key Service (GKS)           3          11      Not listed                               N/A
    Agent Distributor Service    Not listed     2           1                                    N/A
    (ADS)
    International Partner        Not listed     2       Not listed                                N/A
    Search (IPS)
    Customized Market            Not listed     0       Not listed                                    1
    Analysis (CMA)




                                                        12

U.S. Department of Commerce                                                            Final Report IPE – 14243 

Office of Inspector General                                                                         March 2002 


    The reason that the databases do not appear to be up-to-date or have consistent data is two
    fold. First, US&FCS Italy staff have not consistently reported or updated the post’s
    performance activities to reflect actual workload in the databases. While a majority of the
    staff received E-menu and CMS training, some staff indicated that they have not received
    sufficient training and are not proficient in using the two reporting databases. Second, the
    staff believes that the current CMS and E-menu databases have design flaws that make it
    difficult for staff to accurately report their activities. Specifically:

    ��	 Neither CMS nor E-menu indicates completion of some US&FCS Italy products and
        services. For example, in E-menu, the completion of ADS is not tracked for Italy. In
        CMS, the completion of IPS is only tracked for Germany in the European region.
    ��	 CMS’s database field for tracking posts’ product/service completion has two separate
        listings for the International Buyer Program.
    ��	 Some of Italy’s export success entries appear inexplicably in CMS’s database field for
        tracking product/service under the “Not categorized” category.
    ��	 We were told that, for example, although one US&FCS Italy office may transfer an
        incoming IPS request inadvertently sent by a domestic office to another US&FCS Italy
        office, the E-menu system does not allow the original office within Italy or another
        overseas post to delete the request from its records.

    Currently, US&FCS Italy’s reported performance statistics appear to be inaccurate. This
    raises concerns, since performance statistics serve as a major basis for allocating financial
    resources. Consequently, we recommend that US&FCS Italy management advise the staff to
    consistently report and update all performance activities on a timely basis. Post management
    should coordinate with US&FCS headquarters to ensure that the post’s performance numbers
    are accurately reflected in CMS, E-menu, and MRD. Post management should work with
    OIO management and the Office of Information Systems to make the necessary changes to
    the databases as needed. Additionally, US&FCS Italy management will need to ensure that
    staff members are given proper training on CMS and E-menu.



    US&FCS agrees to act upon our recommendation and stated that post will work closely with
    headquarters to improve the accuracy and the timeliness of field performance data. Since the
    OIG’s visit, the post indicated that US&FCS staff have taken advantage of a number of
    headquarters-sponsored training courses aimed at upgrading staff knowledge and
    understanding of database management.

B.	 Post needs to evaluate the offering of different types of services
    to meet U.S. exporter needs in the Italian market

US&FCS Italy could enhance its customized market services by offering the Platinum Key
Service (PKS) and Flexible Market Research (FMR)6 service. While an increasing number of
6
  PKS, according to the US&FCS Product/Service Standards, provides “customized support from overseas
commercial officers and specialists on a range of issues in which the company needs longer-term, sustained
assistance.” FMR provides U.S. firms with customized, individualized information on overseas markets.


                                                        13

U.S. Department of Commerce                                                 Final Report IPE – 14243 

Office of Inspector General                                                              March 2002 


US&FCS posts are offering these services, including Italy’s neighboring posts in Germany and
France, US&FCS Italy questioned their usefulness to its market and has not offered them. We
believe this may stem from the post’s lack of comprehensive information about these services.
By not offering services such as PKS and FMR, US&FCS Italy may be unnecessarily limiting
the venues for U.S. exporters to gain access to the Italian market. Therefore, we are
recommending that US&FCS Italy management explore the possibility of offering PKS and
FMR services at this post.

Both PKS and FMR appear to have had successful starts and were being offered at a significant
number of posts after being offered on a pilot basis at select posts (15 for PKS and 18 for FMR)
in 2000. As of August 2001, PKS was offered at 29 US&FCS posts, and FMR was offered at 30
posts.

US&FCS Italy has not yet begun offering these two new services. We were told by management
that there is some resistance to doing this partly because of the lack of adequate information
about the services. The staff seemed unaware of the specifics of either service, perhaps due to
the lack of guidance from headquarters. We were told that during the pilot stage, US&FCS
headquarters did not issue guidance and information about PKS to non-pilot posts and is now
only providing guidance to such posts upon request.

As a consequence, we are concerned that US&FCS Italy may be missing opportunities to reach
new clients or better serve existing clients by not providing these services, especially given that
other large, European posts are offering both PKS and FMR. Therefore, we suggest that
US&FCS determine whether the new pilot services, PKS and the FMR, are useful services to
offer at US&FCS Italy. To facilitate the decision-making process by the post, we are
recommending that US&FCS headquarters promptly provide guidance and information about
PKS and FMR to all non-pilot posts.



In response to our recommendations, the Director General stated that the post has explored the
possibilities of offering PKS and FMR to their clients. The post is still in the process of
evaluating offering the two products. The Director General also stated that OIO has scheduled
PKS and FMR for worldwide rollout during the current fiscal year, and will provide detailed
guidance and instructions on those services to posts.

C. Dramatic increase planned for market research may
   impact post’s other work

We noted that although US&FCS Italy’s market research products are of high quality, the
quantity produced is lower than that of other, large European posts. To address this problem, the
Principal Commercial Officer in Milan has developed a plan that dramatically increases the
number of market research products produced in Milan and Genoa. While we agree with both
the post and US&FCS headquarters that US&FCS Italy’s production of this important market
research has been too low, we also believe that US&FCS Milan’s plan for an immediate, steep
increase in these market research products could ultimately have a negative effect on the quality



                                                 14

U.S. Department of Commerce                                                                        Final Report IPE – 14243 

Office of Inspector General                                                                                     March 2002 


ensure a quality product. In addition, such a steep increase in IMIs is likely to limit resources
devoted to other priority activities in the office. (See Figure 4 below.)



                             Figure 4: US&FCS Italy's IMI Production

                                        FY 1999 - FY 2002


    400
                                                                                                          364
    300

    200
    100
                                                                                66
        0                  17                         17
                   FY 1999                   FY 2000                    FY 2001                   FY 2002
   FY 2001 based on projection from three quarters of data. FY 2002 projection based primarily on expected increase in
   production from Milan/Genoa offices only.




We believe that it is important for post management to monitor this situation in order to ensure
that the level of IMI production is appropriate and sustainable, and that quality is maintained.
US&FCS Italy management needs to determine what is an appropriate IMI production for Milan
and Genoa as well as for all other posts in Italy.



The Director General stated that US&FCS Italy has implemented a new policy that governs IMI
production countrywide. The post’s policy now requires that each trade specialist in US&FCS
Italy produce two IMIs per month. This action is, we believe, responsive to our concerns and
recommendation concerning market research production.

D. Post needs to conduct systematic client follow-up

US&FCS Italy is not following up systematically with its clients in order to track their export
progress or see if they require further assistance. The staff has indicated that the lack of client
follow-up is primarily due to other, higher priorities. However, by failing to conduct systematic
client follow-up, US&FCS Italy may be missing out on opportunities to capture valuable
customer feedback on the post’s products and services, as well as to learn about potential export
successes through which post performance is largely measured.

Client follow-up is clearly an important goal for US&FCS, and is an integral part of its product
and service delivery. The US&FCS Operations Manual, Section 4.3.1, “Client Care Policy and
Implementation Guidelines,” states that “within 30 days, the US&FCS service provider will


                                                               16

U.S. Department of Commerce                                                  Final Report IPE – 14243 

Office of Inspector General                                                               March 2002 


contact the client to ensure that the product or service was completed to the client’s satisfaction.”
Follow-up is also important to post management and headquarters as a way to gauge the post’s
effectiveness and customer satisfaction with the products and services that they have received.
Client follow-up can also identify additional services that the clients might need. Our review
indicated that the staff generally did not follow up with their clients, although some staff did so
on an ad-hoc basis, thereby inconsistently capturing customer feedback. One respondent,
noticing the lack of follow-up, stated in our survey: “If I had a suggestion, it would be that the
(US&FCS Italy) staff make it a policy to follow up with (Gold Key) clients in 30 to 60 days to
ensure that things are moving forward and then offering any assistance.”

The lack of feedback appears to have resulted from several factors. Most of the staff admitted
that they are not in the habit of systematically entering client information into an automated
database system, and they do not routinely follow up with their clients. We noted that some
trade specialists maintained a stack of business cards at their desks instead of entering this client
information into CMS. The failure to enter all counseling sessions into CMS may also explain
why an extremely low number of counseling sessions are reported in CMS database for
US&FCS Italy, compared to its neighboring European posts (see Figure 5).

Client follow-up is also critical if the post is to capture the results of its work—such as export
successes—which is a large and important part of its performance measurement and contributes
to future resource allocation decisions. Therefore, we recommend that US&FCS Italy
management emphasize the importance of client follow-up and ensure that it is performed
routinely by post staff, as required in the US&FCS Operations Manual.


                   Figure 5: Reported Counseling Sessions: Comparison of US&FCS
                      Italy With Other Large US&FCS European Posts (FY 2001)


           5000

           4000

           3000

           2000

           1000

               0

                              Italy   France   Germany     Spain    U.K.




                                                 17

U.S. Department of Commerce                                                             Final Report IPE – 14243 

Office of Inspector General                                                                          March 2002 





In response to our recommendation, the Director General indicated that the post will issue a
policy in the second quarter of FY 2002 that will encourage staff to conduct more routine client
follow-up. The Director General also stated that OIO’s cost-benefit model is already
encouraging client follow-up and correcting the under-reporting of export successes.

E. Timely delivery of the International Partner Search service is unlikely

US&FCS Italy is unlikely to be able to meet the required 15 business-day response timeframe for
the new IPS product. Our analysis indicated that the post may not be able to consistently provide
this service within the time frame, and this may result in dissatisfied customers who now have
the option to request a product/service fee refund under the new US&FCS Product/Service
Refund Policy.7 Therefore, we are recommending that US&FCS headquarters review the IPS
product standards to determine whether the 15 business-day response standard is reasonable for
this product.

IPS is designed to assist U.S. exporters by identifying joint venture partners, licensees, agents,
distributors, and other strategic partners within a foreign market. According to US&FCS, the
product is designed to be delivered within a maximum of 15 workdays from receipt of payment
and the requesting U.S. company’s information at the US&FCS overseas office.

However, US&FCS Italy may not be able to consistently meet this standard. Management and
staff indicated that the new standard is not very feasible for the Italian market, due to the local
business environment and culture, which requires time to find suitable partners for U.S. products,
and to receive responses to US&FCS inquiries from potential agents and distributors. In
addition, US&FCS Italy has not been able, in the past, to deliver agent/distributor search services
this quickly. We noted that during the past three years, US&FCS Italy completed only 60
percent of its Agent Distributor Service (ADS) product—the predecessor to the IPS—on time
(within 45 calendar days). Moreover, the only IPS completed by US&FCS Italy since the
product was introduced took approximately 50 working days, far more than the required
turnaround.

Failure to meet the due date as specified in the product standard could potentially lead to a rise in
the number of dissatisfied customers asking for fee refunds, cause US&FCS to lose credibility
with the U.S. exporters, and result in missed export opportunities for U.S. firms. As a
consequence, we are recommending that US&FCS headquarters analyze worldwide statistics for
IPS for FY 2001 and determine whether the 15-day due date is reasonable and achievable not
only for this market, but also worldwide.




7
  US&FCS headquarters’ refund policy provides for full or partial refunds to clients in instances where fee-based
products/services fail to meet specifications.




                                                        18

U.S. Department of Commerce                                                 Final Report IPE – 14243 

Office of Inspector General                                                              March 2002 





In response to our recommendation, the Director General stated that US&FCS’s Export
Promotion Services (EPS), which compiles statistics on the time spent by posts to complete an
IPS, reports that “a 15-day timeframe is reasonable and achievable for the vast majority of
posts.” It was further noted by the Director General that if this amount of time was unreasonable
that the post should contact the Export Assistance Center making the request and EPS to work
out a mutually satisfactory delivery date beyond 15 days. US&FCS should provide guidance to
posts on what they should do if they cannot meet the IPS delivery schedule.

F. US&FCS Italy’s Country Commercial Guide (CCG) and listing of
   “Best Prospects” need to be reconciled

US&FCS Italy needs to update and overhaul its CCG in order to make it consistent with other
information available about the post’s products, services, and “best prospect” industries, in order
to make it a more useful tool for counseling U.S. exporters. One official stated that the post has
devoted inadequate attention to the CCG and its accuracy, and that its update has been
considered too often as merely an “annual exercise.”

Before our fieldwork, we noted that the list of best industry prospects cited on US&FCS Italy’s
Internet web page differed from a similar list found in US&FCS Italy’s CCG.8 We found that
not only were the industries listed in different priority order, but also one of the 15 industries
identified on one list did not appear on the other. We were told by the staff that the priority order
of industries listed on the web page was more accurate, whereas the order listed in the CCG was
based more on the number of trade events held for those industries. While at the post, we were
told by most staff that the CCG was not a useful counseling tool, because some of the marketing
and industry information was dated or incorrect.

The web page and the CCG need to be accurate and useful to U.S. exporters. US&FCS Italy is
responsible for updating its own web page information, even those pages maintained on the USA
Trade website. It also shares the responsibility with other sections in the embassy for annual
updates to CCG. However, with US&FCS Italy’s web page and CCG offering inconsistent
information, it is possible that a trade specialist could offer misleading advice, while potential
U.S. exporters could be confused as to whether their industry was a best prospect for export to
the Italian market. US&FCS Italy management had not, at the time of our review, ensured that
the CCG was up to date and accurate, but post management assured us that the CCG would be
more rigorously reviewed before its next publication.



In response to our recommendation, the Director General stated that post has improved its
working relationship with Embassy’s State Department elements in the preparation of the CCG.
Together with the Economic Section, the post is working to obtain the most accurate data
available from American and Italian sources. Furthermore, it was stated that post has reconciled

8
    http://www.sce.doc.gov/country.html.



                                                 19

U.S. Department of Commerce                                 Final Report IPE – 14243 

Office of Inspector General                                              March 2002 


the best prospects in the CCG with those on its web page.




                                               20

U.S. Department of Commerce                                                Final Report IPE – 14243 

Office of Inspector General                                                             March 2002 


III.   Information Technology Issues Need to Be Addressed

US&FCS Italy has a myriad of information technology (IT) support and infrastructure problems
that could become a major threat to its operations. We are recommending that OIO assist the
post in obtaining support from the Office of Information Systems (OIS) in order to address these
problems expeditiously. We noted the following issues in US&FCS Italy:

��	 Numerous malfunctions and system anomalies with the CMS system reduced its usefulness
    to the post’s trade specialists. We were provided with documentation the post sent to OIS
    that outlined the post’s system deficiencies. According to the post, OIS had done little to
    correct them.
��	 Inadequate local support. Two trade specialists—one in Rome and one in Milan—attempt to
    serve as part-time systems administrators for the entire post operation. We were told that
    these administrators do not have the time and resources to adequately support the Genoa,
    Florence, and Naples offices. Nor do they have all the tools they need to fully support all the
    offices’ IT infrastructure, such as software and diagnostic tools, and the authorization to
    make system and user modifications.
��	 In the Milan and Rome offices, there are data risks due to poorly functioning backup systems
    and power supplies.
��	 The post lacks maintenance contracts for most of its printers, copiers, and some IT equipment
    at all of its sites.
��	 Major software problems have hampered the video-conferencing function at US&FCS
    Naples.
��	 Slow Internet connection speeds at all posts have hampered operations.
��	 There is no in-house IT support for Naples and Florence, and Naples depends on the State
    Department to provide IT support without subscribing to this support under ICASS.

It is critical to the post’s operations to maintain a fully functional IT infrastructure and support
system to ensure maximum productivity of its operations. Support of the systems, either in
house or from headquarters, should be timely and effective. If support is not adequate, a post’s
productivity and efficiency can be impaired by vulnerable or unreliable systems. Reliance on
outside entities could result in long downtimes for equipment and the resulting loss of
productivity. We are recommending that US&FCS Italy, with the assistance of OIO, address
outstanding software, hardware, and support issues with OIS and determine viable, cost-effective
solutions to the multitude of issues.



In response to our recommendation, the Director General stated that the post would work with
US&FCS headquarters to strengthen its automated data reporting capabilities. Furthermore,
OIO/Europe will alert the Office of the Chief Information Officer (OCIO), formerly OIS,
concerning all of US&FCS Italy’s outstanding IT issues and work with post to resolve them by
the end of the second quarter. OIO will follow up to ensure that OCIO establishes contact and
that the post is satisfied with the results.




                                                21

U.S. Department of Commerce                                                Final Report IPE – 14243 

Office of Inspector General                                                             March 2002 


V. 	 Showcase Europe Is Considered A Positive Initiative,
     But Its Benefits Are Difficult to Quantify

US&FCS Italy is fully participating in the regional Showcase Europe initiative and believes it
has some benefits to serving U.S. exporters in the European market. However, management and
staff told us that the concept had become stale and “over-controlled” by a central bureaucracy,
and that its benefits are either negligible or unknown. At an April 2001 regional SCO
conference, changes were proposed to Showcase Europe. Most notable among them was a
reduction in best prospect sectors, as well as making participation by US&FCS posts in
“Showcase Europe” sectors and activities optional.

Showcase Europe is a regionally devised and managed program, involving all of the US&FCS
offices in Europe. Its goal is to coordinate US&FCS activities (market research, trade
promotion, and advocacy support) regionally, according to a list of “best prospect” industries, in
order to better serve the U.S. exporter. The initiative does not provide additional resources to
posts, nor does it require the posts to offer new products and services. Instead, it is a method by
which US&FCS offices in Europe can market their normal package of products and services
regionally. US&FCS Italy maintains the trade event calendar for all Showcase Europe events,
leads two best prospect sectors, and supports other sectors by contributing market research,
attending Showcase Europe events, and providing other support.

Interviews with US&FCS Italy staff and management indicated that they are actively
participating in Showcase Europe and think it is a good and appropriate concept for approaching
the increasingly integrated European market; however, the post’s staff and management
indicated that the initiative had become overly centralized among a few posts, had too many
annual taskings without focus or consideration of need, and included some questionable best
prospect industry sectors. They complained about some wasted effort involved in providing
items such as market research that seemed unnecessary and represented few opportunities in the
Italian market. The April 2001 changes in the initiative, which had not yet had any impact at the
time of our visit, should address most, if not all, of these concerns. In addition, post managers
suggested that it would be helpful if the benefits and successes of Showcase Europe were more
readily apparent and reportable, as they are not specifically tracked in the agency’s CMS
database.

We are recommending that US&FCS consider devising a method of accurately capturing
Showcase Europe’s successes and impacts, perhaps by adding a box to be checked on its CMS
“Export Success” entry screen.



In response to our recommendation, the Director General stated that OIO/Europe will work with
the Chief Information Officer to determine whether a code can be added to the CMS’s Success
Story database to allow US&FCS headquarters to sort and view any export successes resulting
from Showcase Europe activities.




                                                23

U.S. Department of Commerce                                                           Final Report IPE – 14243 

Office of Inspector General                                                                        March 2002 


VI. 	 Most Administrative and Financial Operations Are Well-Managed,
      But Improvements Are Needed in Key Areas

In general, we found US&FCS Italy’s financial management and administrative operations to be
sound, effective, and well managed. All assets were accounted for and appropriately used. The
post is also managing ICASS effectively. We found no categories of ICASS usage that appeared
inappropriate, and any unusual increases in ICASS charges were explained to our satisfaction.
The post has reduced both its usage of ICASS and the number of ICASS services it is
participating in. In addition, the post does not have any significant unliquidated obligations and
is appropriately involved in annually reviewing such obligations. We found no inappropriate or
unusual Operations and Administration (O&A) expenditures. Nevertheless, improvements can
be made in some key administrative and financial management areas.

A. US&FCS Rome needs to improve collections management

US&FCS Italy’s office in Rome needs to improve its compliance with cash deposit requirements
and ensure separation of duties in the handling of collections related to its products and services.

      1. Post is not in compliance with deposit requirements

      US&FCS Rome’s collections and deposits to the lockbox are not made weekly, as required.
      We noted that US&FCS Rome accumulates payments for its trade promotion services and
      from the sale of commercial products until the total reaches $100 before making a deposit,
      even though it may take longer than a week to reach this amount. This practice is not in
      compliance with ITA deposit procedures or the collection and deposit requirements of the
      U.S. Treasury.10 According to the policies and procedures established by ITA’s Office of
      Financial Management, “Deposit Procedures for Collections Received At Foreign Posts,”
      overseas posts are required to deposit, by Thursday or the last workday of each week, all
      money collected, regardless of the amount accumulated.

      According to the US&FCS Rome staff, the post follows the current deposit practice because
      the embassy bank charges a $10 fee for converting cash to checks with a value of less than
      $100. Rather than incur the conversion fee for such a small deposit, the staff holds the cash
      payments until they collect at least $100 before making the deposit to the lockbox.

      For the staff to hold cash collected from the sale of services and products, however small the
      amount, beyond the end of the week risks the possibility of loss. Although we believe the
      practice followed by the post makes sense, as noted above, it is not consistent with ITA and
      Treasury requirements. Consequently, if US&FCS Rome wishes to continue this practice, it
      should request that ITA headquarters seek a waiver from the Treasury Department to enable
      US&FCS Rome to accumulate collections until they reach $100 so that the cost of processing
      the collection is not exorbitant in light of the amount to be deposited. In the absence of a
      waiver, the post should follow ITA and Treasury requirements for deposits.

10
     Treasury Financial Manual, Vol. 1, Part 6, Chapter 8000, Cash Management, Section 8030.20.




                                                        24

U.S. Department of Commerce                                                               Final Report IPE – 14243 

Office of Inspector General                                                                            March 2002 





In response to our recommendation, the Director General stated that during the second quarter
the post would request US&FSCS headquarters to seek the necessary waiver from the Treasury
Department.

       2. Collection procedures have not been adequately segregated

       US&FCS Rome collection procedures violate basic internal control principles and also do not
       comply with ITA policy and procedures. This could allow for the potential misuse of the
       receipts collected. According to ITA guidance, “No single individual may control a
       collection transaction. Offices must ensure that collection duties are separated and
       performed by different individuals.” 11 While the amount of cash collected at the post is
       relatively small (less than $3,500 annually), the collection responsibilities should be further
       segregated to safeguard against the potential misuse of receipts and ensure accurate
       reporting.

           Figure 6: Current and Proposed Procedures for Collections and Deposits,
           US&FCS Rome

           Current Collection/Deposit Process                                     Proposed Procedures

                     Trade Specialist receives                                    Trade Specialists receive
                       collection for sale of                                     collections for the sale of
                        product or service                                           products or services

                     Office secretary enters the                                 Designated trade specialist
                    collections into E-menu and                                    enters collection into
                 fills out the lockbox deposit slip                                   log and E-menu


                          DSCO reviews
                          the deposit slip                                  Office secretary prepares deposit slip


              Office secretary mails the deposit to the                      DSCO reviews the deposit slip and
                              lockbox                                        compares it with collection records



              Office secretary reconciles bank deposit                     Office secretary mails the deposit to the
                   receipt with collection records                                         lockbox


                                                                            Designated Trade Specialist reconciles
                                                                             bank deposit with collection records




       ITA policy specifically requires that no single individual should control a collection
       transaction. Responsibilities and duties involving transactions and events should be

11
     ITA Office of Financial Management, “Deposit Procedures for Collections Received At Foreign Posts.”



                                                          25
U.S. Department of Commerce                                                       Final Report IPE – 14243 

Office of Inspector General                                                                    March 2002 


     separated among different employees with respect to authorization, approval, processing and
     recording, making payments or receiving funds, review and auditing, and the custodial
     function and handling of related assets. Therefore, an employee who has responsibility for
     custody or disbursement of cash receipts should not conduct the bank account reconciliation.
     As shown in Figure 6, the current process in US&FCS Rome for collecting and depositing
     collections has too many of the key activities vested with one individual and has omitted key
     supervisory steps that would provide a better internal control environment for this function.
     In particular, the office’s secretary has been given responsibility for too many of the
     significant steps and functions of this process, including:

        ��   Entering the collection information into the E-menu system,
        ��   Preparing the deposit slip
        ��   Mailing the deposit to the lockbox
        ��   Performing a reconciliation between collections, deposits and the bank receipt.

     In addition, the DSCO needs to provide adequate oversight and contribute to a more effective
     internal control environment in this area. While the DSCO reviews the lockbox deposit slip
     prepared by the secretary before it is mailed, there is no assurance that all receipts are
     deposited. Also, the current procedure is inadequate since trade specialists, who receive the
     collections, do not make entries to an event collection control log, which makes
     reconciliation of collections to E-menu or the bank deposits problematic.

     By not having a proper segregation of duties in the handling of receipt collections, the post
     risks potential misuse of receipts collected. To guard against this risk, US&FCS Rome needs
     to better segregate the collection, documentation of collection, deposit, and reconciliation of
     deposit responsibilities, as well as reconcile the deposits to the log and the E-menu.
     Additionally, supervisory review of deposit reconciliations should be conducted on a regular
     basis. We have proposed an improved process for US&FCS Rome, as shown in Figure 6.



The Director General stated that the post would, in consultation with OIO, implement the
specific procedures identified in the draft report by segregating the aforementioned financial
responsibilities, reconciling deposits to the log and E-menu database, and ensuring regular
supervisory review of deposits.

B. US&FCS Italy should be in compliance with all
   requirements of the Prompt Payment Act

US&FCS Italy’s practice of not requiring that invoices received be date-stamped on receipt, or
otherwise have the date of receipt annotated, is in violation of ITA policy and procedures.12 Our
review of purchase orders processed by US&FCS Rome and Milan showed that none of the
invoices reviewed included the date annotation. The Prompt Payment Act13 states that an
12
   ITA Overseas Financial Policies and Procedures Manual, “Disbursements and Expenses-Regular
Disbursements.”
13
   31 United States Code, Section 3901, et. seq.


                                                     26

U.S. Department of Commerce                                                 Final Report IPE – 14243 

Office of Inspector General                                                              March 2002 


invoice is deemed received on the date a proper invoice is actually received by the designated
agency office if the agency annotates the invoice with date of receipt at the time of receipt. The
law provides that, when an invoice is not paid within the time period allowed under the terms of
the contract, late payment interest penalties will accrue. If the date of receipt is not noted on the
invoice, the law requires that the date of the invoice be used as the basis for payment, thus
reducing time for the agency to make timely payment. In the future, US&FCS Italy management
should ensure that all invoices are date-stamped upon receipt, and that all requirements of the
Prompt Payment Act and ITA policies and procedures are met.



In response to our recommendation, the Director General stated that the post has implemented
date-stamping procedures for all invoices upon receipt by all of its commercial offices.

C. Post needs to address minor documentation issues related
   to representation funds

US&FCS Italy is not consistently following required departmental guidelines regarding the use
of representation funds. Over the past three years, US&FCS Italy has received approximately
$8,000 annually in representation funds for official entertainment. We reviewed various
representation fund documents to assess whether the claims included the required information
and were approved by authorized officials. Although the representation claims we reviewed
generally included appropriate documentation and signature approval, at least three of the claims
did not have a list of attendees attached. Without a guest list, we could not determine whether
ITA regulations were followed by the post. Additionally, most of the events using representation
funds stated that the purpose of the event was the “promotion of U.S. national interests,” but did
not elaborate as to how the event promoted national interests.

Department Administrative Order (DAO) 203-10, Official Entertainment and Representation
Authorizations, Section 5.02, provides that when entertainment functions are being held at which
at least 50 percent of the attendees will be federal employees, the Secretarial officers or heads of
primary operating units may approve the function after determining that it is not primarily for the
benefit of the employees. Additionally, Section 6 of the DAO provides that for overseas official
entertainment, State Department regulations, as outlined in Foreign Affairs Manual (FAM)
1434.7, apply to the authorization of expenditures and appropriate documentation. The manual
states that vouchers for entertainment should include (1) the type, purpose, and location of the
function; (2) the names and titles of American and foreign guests of honor; and (3) a brief
description of the official business conducted when all guests are U.S. citizens.

Without a guest list for some of the events, or a description of why the event was held, it is
impossible to verify that the official entertainment and use of representation funds were for a
permitted purpose. US&FCS Italy officials need to ensure that future expenditures of
representation funds for official entertainment meet the requirements of DAO 203-10 and the
Foreign Affairs Manual by stating how or why the event promotes U.S. interests and including a
copy of the list of attendees.




                                                 27

U.S. Department of Commerce                                               Final Report IPE – 14243 

Office of Inspector General                                                            March 2002 





The Director General indicated that US&FCS Italy will ensure that funds used for
representational events will be better documented and justified.

D. Government purchase card approving official needs acquisitions training

The US&FCS Italy SCO has not received the acquisitions training needed to be in compliance
with ITA policy, Treasury Department regulations, and departmental guidelines. ITA’s
“Overseas Purchase Card Guidelines” require that an officer must be the approving official for
officer-held $25,000 single purchase limit cards, and that the approving official must achieve a
passing score on the Simplified Acquisitions Training course. Similarly, the Commerce
Acquisition Manual requires that an approving official for cardholders with a single purchase
limit over $2,500 must complete a Simplified Acquisitions Training course.14 Treasury Directive
76-04, “Government Purchase Card Program,” requires training for cardholders and approving
officials prior to issuance of a purchase card.

The SCO has not received training and thus is not in compliance with the Treasury Directive,
ITA’s policy, or the Commerce Acquisition Manual as he is the approving official for purchases
made with the post’s $25,000 purchase card. Without the required training, an approving official
may not be capable of exercising the oversight necessary to ensure proper use of a purchase card.
To correct this deficiency, US&FCS headquarters should ensure that the US&FCS Italy SCO
completes the Simplified Acquisitions Training course and receives a passing score. Until the
SCO completes the course, the approving official on purchase card purchases should be the
US&FCS/OIO/EUR Regional Director.



In response to our recommendation, the Director General stated that OIO/EUR will ensure that
the SCO completes the Simplified Acquisitions training session during the SCO’s next visit to
headquarters. As recommended, OIO/EUR is currently reviewing and approving the post’s
purchase card invoices until the SCO successfully completes the necessary training session.
Furthermore, OIO/Europe will continue to ensure that any additional cardholders and the
necessary approving officials complete the Simplified Acquisitions Training.

E. Use of purchase cards by non-cardholders should be prevented

Both ITA and departmental guidelines prohibit the use of a purchase card by any person other
than the cardholder.15 Although we found no instance in which the purchase cards were used
inappropriately to purchase items for personal use, we noted two occurrences where persons
other than the cardholder used the office’s purchase card, one in Rome and another in Milan.
The prior Deputy SCO in Rome allowed a non-cardholder employee to make purchases with the
card and, in one instance, allowed a US&FCS headquarters official to use US&FCS Italy’s

14
     Commerce Acquisition Manual, 1313.301, Section 2.1, April 5, 2000.
15
     Commerce Acquisition Manual, Part 13, Section 301, April 19, 2000.



                                                        28

U.S. Department of Commerce                                                Final Report IPE – 14243 

Office of Inspector General                                                             March 2002 


purchase card to obtain a copier that was ordered for and used by the Office of Multilateral
Development Bank Operations (part of ITA in Washington, D.C.). This was done, reportedly,
because of the large, available balance on Italy’s purchase card at the time. To remedy this
situation, we believe that US&FCS headquarters and US&FCS Italy should (1) ensure that, in the
future, only authorized employees use the purchase card and (2) consider obtaining additional
cards with a $2,500 limit for the US&FCS Rome secretary and the US&FCS Milan financial
assistant, as well as a new $25,000 card for the DSCO.



In response to our recommendation, the Director General stated that the post would ensure that
only authorized employees use purchase cards and will consider issuing cards for the US&FCS
Rome secretary and the US&FCS Milan financial assistant. The post also confirmed that the
DSCO already has a $25,000 purchase card.

F. Post needs to consistently follow ITA guidelines for using
   trade event funds to purchase capital assets

Some US&FCS Italy trade event funds are being used to purchase capital assets without proper
authorization. ITA policy allows capital assets to be purchased with trade event funds if the
asset is used to support trade events. There are specific authorization policies for capital
equipment purchases over $5,000 and for those under $5,000. Our review of the procurement of
capital assets with trade event funds disclosed that the post did not consistently follow ITA
policy and procedures for use of these funds, although all purchases did support the post’s trade
events program. Without proper oversight by its management, US&FCS Italy and US&FCS
OIO management cannot be certain that funds generated from trade events are being used
appropriately.

ITA policy states that capital assets can be purchased with trade event funds if those assets are
used for to support trade events and related activities, provided headquarters approves the
purchase. The policy requires that requests for capital equipment of less than $5,000 per
event/product/service be included in the comment section of E-menu (prior to E-menu, in the
comments section of the trade event budget plan), and be approved by the US&FCS Regional
Director.

ITA policy requires that capital equipment requests of over $5,000 be approved by the Regional
Director and the Trade Events Board in headquarters. Our review found that all items purchased
with funds generated from trade events were consistent with supporting the post’s trade events
program, as required in US&FCS’s trust fund policy.

However, we also noted that appropriate procedures for requesting authorization to purchase
capital equipment with these funds were not consistently followed by the post. US&FCS Italy
officials did not always complete a request for approval by the Regional Director and the Trade
Events Board (TEB) to use trade event funds for the purchase of capital assets exceeding $5,000,
as required. For example, US&FCS Italy purchased two pieces of equipment–the “Virtual
Towers” (a portable computer and stand) for $7,000 each–with funds from several trade events.



                                                29

U.S. Department of Commerce                                                           Final Report IPE – 14243 

Office of Inspector General                                                                        March 2002 


No requests were made to the TEB for these purchases, nor did comments appear on any of the
event fiscal plans where liquidations were charged.

Similarly, based on a sample of trade event capital asset procurements of less than $5,000, we
found numerous procurements that did not meet ITA requirements. For example, the purchase of
a computer and monitor during FY 2000 was for $3,062, and charged to a trade event. In this
case, there was no dollar amount noted on the fiscal plan, and no mention in the comments
section, as required. Additionally, the purchase of a color scanner for US&FCS Rome and a CD
recorder and two monitors for US&FCS Milan’s video-conferencing equipment in the amount of
$946 was charged to post-initiated events, and Gold Key Services. However, there was no
indication of the dollar amount on the fiscal plan, and no mention in the comments section. The
Regional Director’s approval was not obtained for any of the above purchases.

To avoid improper use of trade event funds, US&FCS OIO and US&FCS Italy management
must ensure that future requests to use these funds for the purchase of capital equipment items
are submitted to the Regional Director in US&FCS headquarters or both the Regional Director
and the Trade Events Board, as appropriate.



In response to our recommendation, the Director General stated that management at post would
immediately reinforce the capital equipment purchases requirement as stipulated. Furthermore,
OIO/Europe will also reiterate to post the ITA policy concerning capital equipment acquisitions
with trade event funds.

G. US&FCS Italy needs to carefully monitor its
   significant unfunded FSN severance pay liability

US&FCS Italy needs to ensure that, whenever possible, it anticipates, alerts headquarters to and
annually budgets for expenditures that are expected to arise from its FSN severance pay liability
of approximately $815,000. As a result of our review, we learned that, in accordance with Italian
law and State Department guidance,16 US&FCS Italy is liable to pay its FSNs severance for
termination of service, and cannot deny requests for advance severance payment under certain
conditions, such as medical expenses for therapies and surgical operations, purchase of a first
time home for an employee or the employee’s children, home improvement, and increased
financial obligations during periods of additional maternity/paternity leave. According to
US&FCS officials, only about three US&FCS posts have such a requirement for advance
severance pay.

We noted that funds are not currently set aside by US&FCS headquarters (for Italy or any other
country) to cover this potential FSN severance pay liability. US&FCS has had to pay for its
FSN severance pay liabilities out of its O&A funds as they have arisen. Unexpected requests for
advance severance pay by US&FCS Italy employees occurred during FY 2001 when three
employees made requests for advances on their severance pay for a total of $47,000.


16
     U.S. Department of State, Administrative Notice 95-121N, “Severance Pay Plan.”


                                                        30

U.S. Department of Commerce                                                  Final Report IPE – 14243 

Office of Inspector General                                                               March 2002 


Since US&FCS Italy has a large number of employees with more than 30 years of service with
the government, in addition to the advance severance pay requirement, if any of those employees
resigns, US&FCS Italy runs the risk of having to suddenly make a sizable, unplanned
expenditure from its current operating funds or request emergency funds from US&FCS
headquarters to fund the severance payment due the employee. This could possibly disrupt its
other operations. We are recommending that US&FCS Italy, whenever possible, anticipate,
notify headquarters at the earliest possible date, and budget for expected expenditures related to
FSN severance pay. In this way, US&FCS headquarters and ITA can set aside funds early in the
fiscal year to ensure that FSN severance payments can be met and do not disrupt other
operations.



In response to our recommendation, the Director General stated that US&FCS Italy management
will advise FSN staff, as well as the Embassy’s Office of Human Resources, of the need for
advance notice of expected severance pay advances.

H.	 A cost allocation system is needed to properly calculate user fees
    and account for trade event costs

US&FCS Milan does not have an effective cost allocation system to identify and allocate direct
and indirect costs between fee-for-service expenditures and Operations and Administration
(O&A) costs. Without such a system, US&FCS Italy cannot determine the full costs of trade
events and, by extension, whether fees collected recover the full cost of those events, as required.
Our work focused on US&FCS Milan as this office manages the vast majority of the post’s trade
events.

Appropriated O&A funds can only be used for O&A costs and should not be used to pay for
events that should be supported by user fees. US&FCS Milan receives funding authorizations
from ITA headquarters for its O&A costs, which are used to pay for personnel, leasing, utilities,
and telephone costs. Milan also receives funding authorizations for the direct costs of fee-based
events, such as trade events. ITA’s policy states that trade event fees must recover all direct
costs associated with providing events, products, or services for its customers. OMB policy
requires that a user charge be sufficient to recover the full cost of providing the service, resource,
or goods. Additionally, OMB Circular A-25 provides that “full cost” includes all direct and
indirect costs. These costs include, but are not limited to (1) direct and indirect personnel costs,
including salaries and fringe benefits, (2) physical overhead, consulting, and other indirect costs
including supplies, utilities, insurance, travel, rents or imputed rents on land, buildings, and
equipment, and (3) management, supervisory, and other administrative costs.17 The
Department’s DAO 203-5 states that “fees and charges will be set at levels to recover the full
cost of rendering a service.”

US&FCS Milan cannot effectively allocate costs between those activities associated with trade
events and those associated with fundamental post operations. There is no allocation to

17
     OMB Circular A-25, User Fees, Section 6.d.1.



                                                    31

U.S. Department of Commerce                                                 Final Report IPE – 14243 

Office of Inspector General                                                              March 2002 


determine how much, if any, of the indirect costs (such as office utilities, for example) should be
associated with each event. Our review included a comparison of fee collections by event to the
costs and/or liquidations associated with the event. We found that Milan has shown an overall
revenue surplus for fiscal years 1999 and 2000. However, upon closer inspection, the
liquidations do not include all costs that should be allocated under “full cost” recovery to the fee-
for-service events. US&FCS Milan is not including the direct and indirect costs required for
“full cost” recovery in its computations to determine event fees, or for allocating costs to the fee-
for-service event. By not doing so, Milan may be inappropriately subsidizing the cost of trade
events with its O&A funds.

US&FCS Italy should develop and implement, in consultation with US&FCS Milan, an effective
cost allocation system to rationally identify and assign costs, both direct and indirect, associated
with fee-for-service events in accordance with the guidelines established by OMB Circular A-25,
and DAO-203.5.



In response to our recommendation, the Director General said that OIO has been taking steps
toward developing a formal cost allocation system. The Post Performance Targets Worksheet is
a first step toward a formal cost allocation system, and it requires posts to include all of their
costs, including previously “hidden” cost categories such as ICASS and American officer
salaries, that are paid centrally by headquarters. However, the Director General also noted in her
response that the ITA Under Secretary has asked OMB for a waiver on recovering the indirect
costs for fee-for-service events. In addition, ITA plans to conduct a study on how to expand cost
recovery. OIO is waiting for the outcome of both events before instituting a formal cost
accounting system.

I. 	 Post needs to fully implement US&FCS/OIO’s
     policy on telephone usage

US&FCS Italy has not properly implemented US&FCS/OIO’s February 2000 guidance on
telephone usage. As a consequence, US&FCS Italy management and US&FCS headquarters do
not have assurance that government telephone resources are being restricted to official business
and authorized calls. We are recommending that US&FCS Italy managers ensure that the policy
is properly implemented throughout their operations.

In order to properly control and account for personal, long-distance telephone calls at overseas
posts, OIO’s “Telecommunications Policy” (February 28, 2000), requires all officers and
employees who use official telecommunication resources at foreign posts (phone, cellular, and
fax) to:

��   Maintain a personal monthly log to track long-distance calls and faxes,
��   Reconcile their phone/fax log with post’s telephone bill monthly,
��   Identify personal calls and costs,
��   Repay personal calls and faxes, and



                                                 32

U.S. Department of Commerce                                                Final Report IPE – 14243 

Office of Inspector General                                                             March 2002 


��	 Certify to the SCO or PCO acknowledgement and payment for all personal long-distance
    calls and faxes made using government telecommunications channels.

In addition to the above responsibilities, all SCOs and PCOs are required to fill out a form—
“Certification Form for Telecommunications Billings”—to certify the accuracy of the billings
and ensure that the government is reimbursed for personal telephone calls and faxes.
Headquarters is required to conduct spot checks to ensure that the policy is being implemented
by US&FCS overseas operations. Our review indicated that US&FCS’s telecommunications
policy was not being properly implemented by US&FCS Italy. For example, we found:

��	 In US&FCS Rome, only the Deputy SCO was filling out the log properly and completely.
��	 Some Rome employees were not maintaining any telephone/fax log, and other employees
    had a log, but were only logging long-distance calls outside of Italy.
��	 A spot check of employees who used telephone/fax logs in Rome found that the logs
    frequently did not include all long-distance calls on the office’s certified bills.
��	 US&FCS Milan only began using the required phone logs beginning in May 2001, just
    before our arrival. As in US&FCS Rome, employees logged only international long-distance
    calls. Certifications by the officer had yet to be done, although management indicated that a
    problem with itemizing the post’s telephone bills prevented a certification of official calls.
    However, this does not explain why the post did not begin using telephone logs until May
    2001, more than 14 months after the policy was put into place.
��	 We found similar problems at the Florence, Naples, and Genoa offices.

There appears to be some confusion or miscommunication as to which calls have to be logged.
Staff indicated that they believed that only international calls needed to be logged, and not long-
distance calls within Italy. There was also some confusion as to whether calls between US&FCS
Italy offices needed to be logged, given that such calls are frequent and all would presumably be
for official business.

We believe that this situation occurred also because US&FCS (headquarters or Italy), did not
determine whether the policy was being followed, was understood by all staff and officers, and
was effective. Nevertheless, the policy has had many positive effects. Employees in Rome have
purchased and use their own cellular phones for personal calls, and therefore, the government is
less likely to be paying for non-official calls. We believe that the post needs to ensure that
US&FCS’s telephone policy is fully and properly implemented by all of its offices. We are
recommending that US&FCS headquarters determine whether confusion over this policy exists
elsewhere and take steps to make the policy less ambiguous, if necessary.



In response to our recommendation, the Director General stated that at US&FCS Italy’s
September 2001 planning conference, post management reiterated the requirement to maintain
long-distance telephone logs. It was also stated that periodic checks to ensure compliance are
being conducted. In addition, OIO’s Telecommunications Policy states that overseas callers
must “track long-distance calls and faxes,” which includes any type of long-distance call (within
country or international). Under OIO’s policy, calls within Italy (including those to other


                                                33

U.S. Department of Commerce                                                            Final Report IPE – 14243 

Office of Inspector General                                                                         March 2002 


US&FCS offices) must be logged. The March 2000 message from the Deputy Assistant
Secretary for International Operations (DAS/OIO) to announce the policy included guidance that
each regional office would conduct spot checks of two posts per fiscal year. According to the
Director General, OIO/Europe exceeds this requirement and reviews telecommunications bills
throughout the year during management reviews of the posts. Finally, the Director General
stated that the policy will be retransmitted to US&FCS Italy, and OIO/Europe will relay our
recommendations on the telecommunications policy to the Deputy Assistant Secretary for OIO.

J. 	 Post needs to determine whether its official vehicle is still needed
     in Rome

In general, we found adequate controls at the offices that maintain official vehicles.
Documentation was properly maintained, and we noted no instances of improper use of any of
the three vehicles maintained by the offices that have an official vehicle (one each in Rome,
Milan, and Florence).18

US&FCS Rome’s official vehicle is rarely used and, therefore, the vehicle may be unnecessary
to support US&FCS Rome’s operations. We believe that the post, in consultation with
headquarters, needs to determine whether this vehicle is needed or whether it should be
transferred to another office or USG organization, or sold. If the vehicle is no longer considered
necessary to support US&FCS Rome’s operations, its maintenance and related costs represent an
unnecessary expense to the government. We noted that current officers have rarely used the
official vehicle (although the previous officer group and some US&FCS Rome staff did use the
car in the past). At the time of our visit, we noted that the vehicle had not been used between
December 2000 and June 2001, and its battery was dead from non-use when we went to inspect
it. US&FCS Rome officials believe that the vehicle is not needed and that it should either be
sold or transferred to another office. The officers indicated that, given the city’s traffic and
difficult parking situation, plus the availability of taxis for use in the city and trains to go
between cities, maintaining a vehicle at the post is an unnecessary expense.

At the time of our review, the new management team had been in place in US&FCS Rome for
almost a year. In consultation with US&FCS headquarters, a decision should be made
expeditiously on whether to transfer or dispose of the vehicle, if it indeed is not necessary to
support operations in Rome.



18
   According to the “Mission Policy on Use of Official Vehicles,” American Embassy, Rome, Administrative
Instruction 95-014I, agencies are required to own/operate only the minimum number of vehicles necessary to meet
authorized transportation needs, and all official vehicles must be used for official business purposes only, except
when authorized and reimbursed. All vehicle usage is required to be reported on Department of State Form OF-108,
“Daily Vehicle Usage Record.”




                                                        34

U.S. Department of Commerce                                              Final Report IPE – 14243 

Office of Inspector General                                                           March 2002 




In response to our recommendation, the Director General stated that US&FCS Rome’s car has
already been transferred, with OIO approval, to US&FCS Vienna.

K. US&FCS Milan needs to better oversee US&FCS Genoa’s
   imprest fund

US&FCS Italy is effectively managing the imprest funds maintained in the Milan and Genoa
offices, although minor improvements can be made. At both locations, we reviewed internal
control and management procedures, and conducted a cash count. We found both imprest funds
were properly balanced, all expenditures were supported with original bills and for appropriate
expenses, and replenishment vouchers were submitted as required. Imprest funds were also
physically safeguarded in both locations.

However, we noted that a count had not taken place by an officer in US&FCS Genoa since
January 1994. US&FCS procedures require that an American officer perform periodic,
unannounced verifications at least once each month. Commercial officers from US&FCS
Milan—which supervises the Genoa operations—travel occasionally to Genoa in conjunction
with post operations and events, although not necessarily monthly. However, even though
officers occasionally travel to Genoa, periodic imprest fund checks have not occurred. While we
noted no problems with the fund in Genoa or the supporting documentation and procedures, the
lack of outside, required verification by an American Officer is an internal control weakness and
does not contribute to ensuring the proper usage of the imprest fund and avoidance of fraud or
loss.

We also noted that documentation is forwarded every quarter to US&FCS Milan’s administrative
specialist, which shows balances, authorized expenses, and allows for replenishment.
Nevertheless, an unannounced, periodic review of US&FCS Genoa’s imprest fund is not only a
requirement, but also an invaluable part of an effective internal control environment concerning
cash. The post should arrange for such periodic reviews to be conducted in coordination with
commercial officer visits to the Genoa office.



In response to our recommendations, the Director General stated that post management will
implement this recommendation for the interim period that the US&FCS presence in Genoa is
maintained.




                                               35

U.S. Department of Commerce                                                    Final Report IPE – 14243 

Office of Inspector General                                                                 March 2002 


                                     RECOMMENDATIONS

We recommend that the SCO in US&FCS Italy take appropriate steps to:

1. 	 Revise the post’s strategic plan, balancing US&FCS headquarters’ need for brevity with the
     post’s need for a useful plan that accurately describes its priorities and plans for attaining its
     performance goals. (See page 5.)

2. 	 Coordinate with US&FCS headquarters to develop a comprehensive resource allocation plan
     to address the post’s resource requirements. (See page 6.)

3. 	 Develop a plan to better manage the post’s e-mail workload. (See page 7.)

4. 	 Ensure that post staff consistently report and update all performance activities in US&FCS
     automated systems on a timely basis. (See page 9.)

5. 	 Ensure that post staff understand the export success criteria established by headquarters;
     monitor their reporting to ensure that the staff are entering all and only legitimate export
     successes into CMS on a regular basis; and improve the screening of export successes by
     strictly applying headquarters’ criteria before any data is entered into CMS. (See page 11.)

6. 	 Coordinate with US&FCS headquarters to ensure that the post’s performance numbers are
     accurately reflected in CMS, E-menu, and MRD. Post management needs to work with OIO
     and OIS to make changes to the databases, as needed. Additionally, ensure that all staff
     members are given appropriate training on CMS and E-menu. (See page 11.)

7. 	 Determine whether the post should offer the Platinum Key Service (PKS) and Flexible
     Market Research (FMR) products. (See page 13.)

8. 	 Monitor production of the International Market Insight product in Milan, as well as in the
     other US&FCS offices, to ensure that the level of production is appropriate, and that
     sustainable quality is maintained. (See page 14).

9. 	 Reemphasize the importance of client follow-up by ensuring that post staff performs it
     routinely. (See page 16.)

10. Ensure that the Country Commercial Guide for Italy is accurate and timely, and that its
    information is consistent with that posted on the US&FCS web page. (See page 19.)

11. With the assistance of OIO, address outstanding software, hardware, and support issues with
    OIS and determine viable, cost-effective solutions. (See page 20.)

12. Work with OIO to quickly address the two security improvements needed at the US&FCS
    Genoa office. (See page 21.)




                                                   36

U.S. Department of Commerce                                                Final Report IPE – 14243 

Office of Inspector General                                                             March 2002 


13. If the post wishes to continue accumulating deposits until they reach $100, request that ITA
    headquarters seek a waiver from the Treasury Department to enable US&FCS Rome to
    accumulate collections until they reach $100 so that the cost of processing the collection is
    not exorbitant in light of the amount to be deposited. (See page 23.)

14. Segregate the collection, documentation of collection, deposit and reconciliation of deposit
    responsibilities, as well as reconcile deposits to the log and the E-menu system.
    Additionally, ensure that supervisory review of deposits is conducted on a regular basis. (See
    page 24.)

15. Ensure that all invoices are date-stamped upon receipt, as required by ITA policies and
    procedures. (See page 25.)

16. Ensure that future uses of funds provided for representation purposes are adequately
    documented and justified, according to the requirements of DAO 203-10. (See page 26.)

17. In cooperation with US&FCS headquarters, (1) ensure that, in the future, only authorized
    employees use the purchase card and (2) consider obtaining additional cards with a $2,500
    limit for the US&FCS Rome secretary and the US&FCS Milan financial assistant, as well as
    a new $25,000 card for the DSCO. (See page 27.)

18. Ensure that future requests to use trade event funds for the purchase of capital equipment
    items for trade events are submitted for approval by either (a) the Regional Director in
    US&FCS (under $5,000 purchases), or (b) by both the Regional Director and the Trade
    Events Board (over $5,000), as appropriate. (See page 28.)

19. Whenever possible, anticipate, notify headquarters at the earliest possible date, and budget
    for expected expenditures related to FSN severance pay. (See page 29.)

20. Develop and implement, in consultation with US&FCS Milan and headquarters, an effective
    cost allocation system to rationally identify and assign costs, both direct and indirect,
    associated with fee-for-service events, in accordance with the guidelines established by OMB
    Circular A-25 and DAO 203.5. (See page 30.)

21. Ensure that US&FCS headquarters’ telephone policy is properly implemented by all of the
    post’s offices. (See page 31.)

22. Determine whether US&FCS Rome’s official vehicle is needed, and if not, sell or transfer it
    in accordance with appropriate procedures. (See page 33.)

23. Ensure that imprest fund procedures are followed for the fund maintained by the US&FCS
    Genoa office. In particular, US&FCS Milan should ensure that imprest fund cash counts and
    examinations occur in coordination with commercial officer visits to the Genoa office. (See
    page 34.)




                                                37

U.S. Department of Commerce                                                 Final Report IPE – 14243 

Office of Inspector General                                                              March 2002 


We recommend that Director, US&FCS Office of International Operations, take appropriate
steps to:

1. 	 Reconsider the guidance for preparation of post strategic plans, balancing headquarters’ need
     for brevity with posts’ needs for a useful plan that accurately portrays their operations. (See
     page 5.)

2. 	 Improve the quality and the accuracy of posts’ reporting by regularly conducting spot checks
     of reporting of export successes by all posts to ensure that CMS entries are appropriate. (See
     page 9.)

3. 	 Promptly provide guidance and information about the Platinum Key Service and Flexible
     Market Research service to all non-pilot posts. (See page 13.)

4. 	 Review and analyze worldwide statistics for the International Partner Search product for FY
     2001 and determine whether the 15-day time frame is reasonable and achievable not only for
     US&FCS Italy, but worldwide and, if not, make appropriate adjustments or issue new
     guidance. Guidance should be issued to US&FCS posts on changes to the IPS time-frame, or
     if the 15-day deadline is kept, the guidance should advise posts of what they should do if
     they cannot meet the schedule for a specific IPS request. (See page 18.)

5. 	 Assist US&FCS Italy in addressing outstanding software, hardware, and support issues with
     OIS and determine viable, cost-effective solutions. (See page 20.)

6. 	 Work with US&FCS Italy to quickly address the two security improvements needed at the
     US&FCS Genoa office. (See page 21.)

7. 	 Consider ways, perhaps through the CMS system, of defining and capturing successes for
     Showcase Europe. (See page 22.)

8. 	 Ensure that the US&FCS Italy SCO completes the Simplified Acquisitions training program
     and achieves a passing score. Until then, the US&FCS Regional Director for Europe should
     be the approving official on the post’s credit card purchases. If additional cards are obtained,
     ensure that the approving officials for these cards also receive the training. (See page 27.)

9. 	 Ensure that expenditures of trade event generated funds by US&FCS Italy comply with
     US&FCS procedures requiring headquarters approval. (See page 28.)

10. Assist US&FCS Milan in developing an effective cost allocation system to rationally identify
    and assign costs, both direct and indirect, associated with fee-for-service events, in
    accordance with the guidelines established by OMB Circular A-25. (See page 30.)

11. Improve compliance with the US&FCS telecommunications usage policy by adjusting it to
    address the following issues:
    ��Whether employees should log all long-distance calls, or only international calls.
    ��Whether calls to other US&FCS Italy or in-country offices need to be logged.



                                                 38

U.S. Department of Commerce                                        Final Report IPE – 14243 

Office of Inspector General                                                     March 2002 


   ��How frequently US&FCS headquarters regional directors should conduct spot checks of
     post compliance with the policy. (See page 31.)




                                           39

U.S. Department of Commerce                                                Final Report IPE – 14243 

Office of Inspector General                                                             March 2002 


                                           Appendix I

                              Acronyms for US&FCS Product/Service


ADS 	          Agent/Distributor Service was the predecessor to the International Partner Search
               (IPS) services. ADS delivered detailed company information on up to five
               prescreened potential agents or distributors that have expressed an interest in
               marketing a company’s products and services.

CMA 	          A Customized Market Analysis provides U.S. firms with an assessment of how
               their product or service will sell in a given market.

FMR 	          The Flexible Market Research service provides customized answers to inquiries
               about a particular market and its receptivity to targeted products and services.

GKS 	          The Gold Key Service provides clients with one-on-one appointments with
               potential business partners identified and selected by US&FCS in a targeted
               export market.

IMI 	          International Market Insights are brief reports on specific foreign market
               conditions and upcoming opportunities for U.S. businesses.

IPS	           The International Partner Search service succeeded the previous ADS service.
               Like the ADS, the IPS provides the requestor with potential partners to market
               their product or service in a given area, although with a faster response time of a
               maximum of 15 working days.

ISA	           The Industry Sector Analysis product provides information on specific industries
               such as market potential, demand trends, market size, competition, market access
               information, regulations, distribution practices, and key contacts.

PKS	           The Platinum Key Service provides a firm with ongoing, customized support for a
               specified time frame, scope and fee. The service is tailored to a client’s needs,
               providing counseling and information such as identifying markets, launching
               products, developing project opportunities, finding partners, helping to reduce
               market access barriers, and assisting on regulatory or technical standards matters.

TOPS 	         The Trade Opportunity Program provides U.S. suppliers with trade leads gathered
               from reputable firms and government agencies.




                                                40

U.S. Department of Commerce         Final Report IPE – 14243 

Office of Inspector General                      March 2002 





                              41

U.S. Department of Commerce         Final Report IPE – 14243 

Office of Inspector General                      March 2002 





                              42

U.S. Department of Commerce         Final Report IPE – 14243 

Office of Inspector General                      March 2002 





                              43

U.S. Department of Commerce         Final Report IPE – 14243 

Office of Inspector General                      March 2002 





                              44

U.S. Department of Commerce         Final Report IPE – 14243 

Office of Inspector General                      March 2002 





                              45

U.S. Department of Commerce         Final Report IPE – 14243 

Office of Inspector General                      March 2002 





                              47

U.S. Department of Commerce         Final Report IPE – 14243 

Office of Inspector General                      March 2002 





                              48

U.S. Department of Commerce         Final Report IPE – 14243 

Office of Inspector General                      March 2002 





                              50

U.S. Department of Commerce         Final Report IPE – 14243 

Office of Inspector General                      March 2002 





                              51

